Case: 20-5220

Document: 15-2

Filed: 11/25/2020

Page: 1

No. 20-5220

FILED

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
NICHOLAS COREY GARNER, aka Frank Marten,
aka Clark David Thomson, aka Wallace Steeves,
aka Neal Marion, aka Ronald Peterson, aka Patrick
Steele, aka Nicholis Corey Gamer,
Petitioner-Appellant,
v.

UNITED STATES OF AMERICA,
Respondent-Appellee.

Nov 25, 2020
DEBORAH S. HUNT, Clerk

)
)
)
)
)
)
)
)
)
)
)
)

ORDER

Before: CLAY, Circuit Judge.
Nicholas Corey Gamer, a pro se federal prisoner, applies for a certificate of appealability
(“COA”) in his appeal from the district court’s judgment denying his 28 U.S.C. § 2255 motion to
vacate, set aside, or correct his sentence as well as several motions concerning discovery and
miscellaneous matters. See 28 U.S.C. § 2253(c)(1)(B). Gamer also moves to file an oversized
brief.
Gamer engaged in an international conspiracy to defraud people buying cars over the
internet. See United States v. Carmichael, 676 F. App’x 402, 404 (6th Cir. 2017). He pleaded
guilty without a plea agreement to conspiracy to commit wire fraud. The district court sentenced
him to 240 months of imprisonment. This court affirmed Gamer’s conviction and sentence on
appeal. Id. at 405-11.
Gamer has since made numerous filings in the district court. In 2018, he filed a § 2255
motion, which alleged seventeen claims in all, including that his attorneys were ineffective, that
the prosecutor committed misconduct, and that his guilty plea was not knowing and voluntary. A
magistrate judge recommended denying the motion on the merits.

United States v. Garner,

No. CR512065JMHMAS3, 2019 WL 7899167 (E.D. Ky. Apr. 30, 2019) (report &

Case: 20-5220

Document: 15-2

Filed: 11/25/2020

Page: 2

No. 20-5220
-2recommendation).

The district court adopted the magistrate judge’s recommendations over

Gamer’s objections, denied his § 2255 motion, and declined to issue a COA. United States v.
Garner, No. CR 12-65-DLB-MAS, 2020 WL 430809 (E.D. Ky. Jan. 28,2020). In that same order,
the district court also denied as moot several other motions that Gamer had filed in his § 2255
proceedings. Gamer appealed not only the denial of his § 2255 motion but also “all pleadings
related thereto.”
A court may issue a COA “only if the applicant has made a substantial showing of the
denial of a constitutional right.” 28 U.S.C. § 2253(c)(2). “That standard is met when ‘reasonable
jurists could debate whether (or, for that matter, agree that) the petition should have been resolved
in a different manner,”’ Welch v. United States, 136 S. Ct. 1257, 1263 (2016) (quoting Slack v.
McDaniel, 529 U.S. 473, 484 (2000)), or when “jurists could conclude the issues presented are
adequate to deserve encouragement to proceed further,” Miller-El v. Cockrell, 537 U.S. 322, 327
(2003).
In Gamer’s COA application, he raises arguments about claims 1, 4, 6, 7, 8, 12, 13, 14,
and 15.

Gamer did the same in his objections to the magistrate judge’s report and

recommendation. By failing to present arguments about his other claims, Gamer has abandoned
them. See Souter v. Jones, 395 F.3d 577, 585 (6th Cir. 2005); Jackson v. United States, 45 F.
App’x 382, 385 (6th Cir. 2002) (per curiam).
Claims 1, 4, 7, 8, 12, and 13 alleged ineffective assistance by the attorney who represented
Gamer from his detention hearing until his sentencing. Claims 6, 14, and 15 alleged ineffective
assistance by his appellate attorney. To prove ineffective assistance of counsel, a § 2255 movant
must show that his attorney’s performance was objectively unreasonable and that he was
prejudiced as a result. United States v. Coleman, 835 F.3d 606, 612 (6th Cir. 2016) (citing
Strickland v. Washington, 466 U.S. 668, 688, 694 (1984)).
In Gamer’s first claim, he maintained that his attorney did not ensure that he had a full
understanding of an offered plea agreement before he rejected it in favor of pleading guilty without
an agreement. The district court noted that a letter from counsel that Gamer relied on in support
of this claim in fact undermined it. Garner, 2020 WL 430809, at *5. In the letter, counsel

Case: 20-5220

Document: 15-2

Filed: 11/25/2020

Page: 3

No. 20-5220
-3explained why he believed that the government’s offer—which likely carried the statutory
maximum sentence of 240 months—was less advantageous than a “naked guilty plea,” in which
counsel believed a lower sentence was possible. Thus, Gamer has not made a substantial showing
that his attorney was deficient in explaining the plea strategy. And although Gamer ultimately
received the statutory maximum 240-month sentence after his naked guilty plea, he has not made
a substantial showing that the government had offered him a lower sentence and thus that he was
prejudiced by his counsel’s performance.
In Gamer’s fourth claim, he asserted that his attorney failed to investigate the allegedly
illegal search and seizure of his car. The district court denied this claim because Gamer failed to
show prejudice. The court noted that police performed a valid inventory search of Gamer’s car
after they had pulled him over for speeding and discovered that he had an outstanding warrant for
his arrest in this case. Id. at *6-7. Thus, because Gamer has not made a substantial showing that
counsel overlooked viable arguments about the search, no reasonable jurist could debate the denial
of this claim.
In his seventh claim, Gamer alleged that counsel failed to investigate the allegedly illegal
search of his email. The district court similarly rejected this claim for lack of prejudice, because
the government’s search was performed pursuant to a search warrant. Id. at *7. No reasonable
jurist could debate that decision.
In his eighth claim, Gamer alleged that his attorney coerced him into pleading guilty. The
district court denied this claim after quoting Gamer’s plea colloquy, in which the district court
explained the indictment, Gamer’s rights, his potential sentence, and the like, ensuring that Gamer
understood the ramifications of his guilty plea. Id. at *4. The district court also referenced the
letter cited above, in which counsel explained the naked guilty plea and its implications. Id. As a
result, Gamer has not made a substantial showing that his attorney coerced him or otherwise did
not explain the plea to him.
Gamer’s twelfth and thirteenth claims alleged that his attorney failed to investigate and
raise objections about the number of victims, the amount of loss suffered, and the restitution in his
case. The district court denied these claims because these matters “were repeatedly contested by

Case: 20-5220

Document: 15-2

Filed: 11/25/2020

Page: 4

No. 20-5220
-4Gamer’s counsel,” noting “that these proceedings involved Gamer’s counsel raising objections,
eliciting testimony, and cross-examining the Government’s witnesses.”

Id. at *6.

In

recommending rejecting this claim, the magistrate judge cited counsel’s “exhaustive
understanding of all aspects of this case.” Gamer, 2019 WL 7899167, at *6. Gamer has not made
a substantial showing that his attorney’s performance with regard to these issues involved “errors
so serious that counsel was not functioning as the ‘counsel’ guaranteed the defendant by the Sixth
Amendment.” Strickland, 466 U.S. at 687.
In claims 6, 14, and 15, Gamer alleged that his appellate attorney was constitutionally
ineffective. In his sixth claim, Gamer asserted that his attorney failed to raise an argument on
appeal challenging the restitution portion of his sentence. The district court determined that Gamer
could not show prejudice. The court once more cited the “thoroughness of the district court’s
proceedings related to” this issue. Garner, 2020 WL 430809, at *7. The court also noted that
counsel did raise an argument about the related issue of the district court’s calculation of loss,
which this court affirmed. Id. Moreover, Gamer’s co-defendants raised a restitution argument on
appeal, and this court affirmed the district court’s calculation. Carmichael, 676 F. App’x at 41213. Thus, Gamer has not made a substantial showing of prejudice.
In his fourteenth and fifteenth claims, Gamer asserted that his attorney failed to argue on
appeal that the district court erred in applying two sentencing enhancements, one for being an
organizer of a criminal activity and another for having more than 250 victims. The district court
denied these claims because, even if those enhancements had not been applied, it would not have
reduced his advisory sentencing range under the United States Sentencing Guidelines below the
statutory maximum sentence that Gamer received. See Garner, 2019 WL 7899167, at *6 n.3.
Thus, the court held that counsel was not deficient for failing to raise these arguments on appeal
and that Gamer was not prejudiced. Id. at *7. No reasonable jurist could debate that decision.
Among the other motions that Gamer filed in his § 2255 case, he sought an evidentiary
hearing, discovery, and a pre-hearing conference. In denying Gamer’s § 2255 motion, the district
court held that a hearing was unnecessary. A district court “shall. .. grant a prompt hearing” to a
§ 2255 movant “[ujnless the motion and the files and records of the case conclusively show that

Case: 20-5220

Document: 15-2

Filed: 11/25/2020

Page: 5

No. 20-5220
-5the prisoner is entitled to no relief.” 28 U.S.C. § 2255(b). Because, as explained above, Gamer’s
§ 2255 motion showed that he was not entitled to relief, no reasonable jurist could debate the
district court’s decision not to hold an evidentiary hearing, much less a pre-hearing conference.
And the same is true for the district court’s denial of Gamer’s discovery motion, because he failed
to show “good cause.” Thomas v. United States, 849 F.3d 669, 680 (6th Cir. 2017); see also
Rule 6(a) of the Rules Governing § 2255 Proceedings.
In denying Gamer’s § 2255 motion, the district court also denied several related motions
as moot. Gamer moved for summary judgment and default judgment, and, given the analysis
above denying a COA in his § 2255 case, no reasonable jurist could debate the denial of these
motions. Gamer filed a motion for a temporary stay, but he later filed a motion to lift the stay,
even as the district court never took up his original motion. He moved for status about the district
court’s order rescinding the referral of Gamer’s § 2255 case to the magistrate judge, which is
within the district court’s discretion. See 28 U.S.C. § 636(b); Fed. R. Civ. P. 72. Finally, Gamer
filed a “Motion in Response to the Court’s Order,” a motion for status regarding that motion, and
a motion to compel, all of which concerned documents that the district court had ordered his trial
attorney to provide to him. In his motion to compel, Gamer notes that counsel provided him with
at least some of the documents, while Gamer also argued that counsel did not send him copies of
numerous filings available on the docket. Given the district court’s denial of his underlying § 2255
claims, and because Gamer did not show good cause for additional discovery, no reasonable jurist
could debate the denial of these motions.
Accordingly, Gamer’s motion to file an oversized brief is GRANTED, and his COA
application is DENIED.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

i

Case: 5:12-cr-00065-DLB-MAS Doc #: 1002^

Filed: 01/28/20 Page: 1 of 19 - Page ID#:

APPENDIX E
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF KENTUCKY
CENTRAL DIVISION
AT LEXINGTON
•

* CRIMINAL ACTION NO. 12-65-DLB-MAS
CIVIL ACTION NO. 18-228-DLB-MAS
PLAINTIFF

UNITED STATES OF AMERICA
ORDER ADOPTING REPORT AND RECOMMENDATION

v.

DEFENDANT

NICHOLAS COREY GARNER
* *

* *

* *

* *

* *

* *

This matter is before the Court upon pro se
Motion to Vacate, Set Aside, or
# 882).

* *

* *

Defendant Nicholas Corey Garner’s

Correct Sentence pursuant to 28 U.S.C. § 2255. (Doc.

Consistent with local practice, this matter was referred to United States

Magistrate Judge Matthew A. Stinnett1 for the purpose of reviewing the Motion and
preparing a Re

port and Recommendation ("R&R”). On April 30, 2019, Judge Stinnett

issued his R&R (Doc.

# 963) wherein he recommends that Garner’s Motion be denied.

Gamer having filed timely Objections to the R&R (Doc. # 971), this matter is now ripe for
the Court's review

For the reasons set forth herein, Garner's Objections are overruled

and the R&R is adopted as the findings of fact and conclusions of law of the Court. As
a result of the denial of Gamer's § 2255 Motion, many of his other pending Motions must
be denied as moot. See infra.

i
This matter was originally referred to Judge Wier. Judge Wier received his judicial
mmmiwion as a district iudqe of the Eastern District of Kentucky on June 12, 2018, terminating
his service as a magistrate judge; the referral was rescinded a.xordingly, (Doc. # 901). The case
was then randomly referred to Magistrate Judge Stinnett on January 25, 2019. (Docs. # 935 and
936).
1
APPENDIX E

4

Case: 5:12-cr-00065-DLB-MAS Doc #: 1002 Filed: 01/28/20 Page: 2 of 19 - Page ID#:
8409

I.

FACTUAL AND PROCEDURAL BACKGROUND2
On March 12, 2013, Garner and numerous co-defendants were indicted on

charges

of conspiracy to commit wire fraud.3 (Doc. # 152). The conspiracy involved a

on
dozen individuals in an international scheme to defraud people purchasing vehicles
the internet over the course of several years. Id. On December 4, 2013, Garner pled
guilty to conspiracy without a plea agreement. (Doc. # 333). In June 2014, prior to
sentencing, Garner moved pro se to withdraw his guilty plea over his counsel’s objections.
(Doc. # 413). The Court denied this request and Garner was sentenced on February 2,
2015, to 240 months of imprisoi ment and ordered to pay $1,807,517.06 in restitution.
(Docs. # 443, 591, 594 anc(772 J On January 13, 2017, the Sixth Circuit affirmed the
District Court’s Judgment. (Doc. # 822).
On April 13, 2018, Garner filed a Motion to Vacate, Set Aside, or Correct his
Sentence pursuant to 28 U.S.C. § 2255. (Doc. # 882). In his Motion, Garner sets out
seventeen (17) grounds, which he argues support his belief that his sentence violated his
/equal protection and speedy trial rights)
right to counsel,

as well as alleging ineffective

assistance of counsel. Id. On May 29, 2018, the United States responded in opposition
to Garner’s Motion, (Doc. # 898), and Garner subsequently replied in support of his
Motion, (Doc. # 903).
As Judge Stinnett noted, Garner’s Motion relates in great part to his open guilty
plea. (Doc. # 963 at 3). Many of Garner’s arguments in support of the Motion relate to

2
As an initial matter, Garner makes no specific objection, see infra, to the
and
procedural background outlined in Magistrate Judge Stinnett’s R&R. (Doc. #971 at 1-2). As a
result, the relevant factual background as set forth in the R&R is adopted by the Court. Id.
3
Two previous Indictments had been returned charging Garner with the same crime and
alleging his participation in the conspiracy. (Docs. # 12 and 43).
2

I

Case: 5:12-cr-00065-DLB-MAS Doc#: 1002 Filed: 01/28/20 Page: 3 of 19 - Page ID#:

8410

Garner’s

claims of ineffective assistance of counsel by three separate defense attorneys.

is counsel and the district court
See (Doc. # 882). Among other things, he argues that his
failed to assure that his plea was
charges against him

intelligent and knowing and that he understood the

See id. He also claims his counsel failed to make appropriate pre-

trial objections. See id. Moreover, he claims that his appellate counsel failed to raise the
issue that his guilty plea was not intelligently given on appeal. See id. Finally, Garner
argues that his case

involved prosecutorial misconduct and that he should be able to

withdraw his guilty plea. See id.
On April 30, 2019, Magistrate Judge Stinnett filed his R&R, recommending that
Garner’s Motion be denied. (Doc. # 963). In doing so, Judge Stinnett separated Garner’s
seventeen (17) grounds into two main categories: (1) ineffective assistance of counsel
claims and (2) claims related to prosecutorial misconduct and withdrawal of Garner’s
guilty plea. Id. at 2-14.
Judge

Stinnett first addressed the ineffective assistance of counsel claims, which

were the basis of grounds 1, 2, 3, 5, 8,10, and 17, and which he concluded were refuted
by the record. Id. at 2-9. Next, he concluded that the remainder of Garner’s arguments,
which related to his claim of ineffective assistance of counsel, 3, 4, 6, 7,14, and 15, fail
to meet the Strickland standard. Id. at 9-13. Finally, he found that Garner’s remaining
arguments, relating to

grounds 9 and 11 and which raise issues of prosecutorial

misconduct and withdrawal of his guilty plea, were without merit because they are
underdeveloped and conclusory. Id. at 13—14.
On May 5, 2019, Garner timely filed Objections to the Magistrate Judges Report
and Recommendation. (Doc. # 971). Having considered the objected-to portions of the

3

Case: 5:12-cr-00065-DLB-MAS

Doc#: 1002 Filed: Q$/28/20 Page: 4 of 19 - Page ID#:

8411

%
‘■H

R&R de novo as required, see infra, the Court adopts Judge Stinnett’s recommendation,
(Doc. # 963), as its own.
II.

ANALYSIS
A.

Standard of Review

Under Federal Rule of Civil Procedure 72(b)(2), a habeas petitioner may object to
a magistrate judge’s R&R. Fed. R. Civ. P. 72(b)(2). If the petitioner objects, “The district
judge must determine de novo any part of the magistrate judge's dispositionjhathasbeen
properly objected to." Fed. R. Civ. P. 72(b)(3); see also 28 U-S.C.J636Jb)(1)^__
The Sixth Circuit has held “[ojnly those specific objections to the magistrate's report
made to the district court will be preserved for appellate review.” Carson v. Hudson, 421
F. App’x 560, 563 (6th Cir. 2011) (quoting Souter v. Jones, 395 F.3d 577, 585-86 (6th
Cir. 2005). A specific objection “explain[sj and cite[s] specific portions of the report which
[counsel] deem[s] problematic.” Robert v. Tesson, 507 F.3d. 981, 994 (6th Cir. 2007)
(quoting Smith v. Chater, 121 F.3d 709, 1997 WL 415309, at *2 (6th Cir. 1997)
(unpublished opinion)). A general objection that does not identify specific issues from the
magistrate's report is not permitted because it renders the recommendations of the
magistrate useless, duplicates the efforts of the magistrate, and wastes judicial economy.
Howard v. Secretary of Health and Human Services, 932 F.2d 505, 509 (6th Cir. 1991).
While filings by a pro se Defendant must be construed more liberally than those prepared
by an attorney, see Erickson v. Pardus, 551 U.S. 89, 94 (2007); Castro v. United States,
540 U.S. 375, 381-83 (2003), a pro se petitioner is not exempt from following the rules of
the Court, Ashenhust v. Ameriquest Mortg. Co., No. 07-13352, 2007 WL 2901416, at *1
(E.D. Mich. Oct. 3, 2007) (citing-McNeill v. United States, 508 U.S. 106, 113 (1993))

N»

Case: 5:12-cr-00065-DLB-MAS Doc #: 1002
8412

Filed: 01/28/20 Page: 5 of 19 - Page ID#:

(While “[tjhese [objection] rules are tempered by the principle that pro se pleadings are to
be liberally construed . . . a pro se

litigant must still comply with the procedural rules of

the court.”).
B.

Garner’s Objections

Garner did not to raise objections to the R&R as it pertains to grounds 2, 3, 5, 9,
10, 11, 16, and 17

; thus, these objections are waived. (Doc. #971); see supra. Instead,

Garner makes seven numbered objections, relating to the following grounds raised in his
motion: 1,4, 6,7, 8,12,13,14, and 15. Id. In the instant action, Garner was represented
by seven separate attorneys from pre-indictment through his direct appeal. (Doc. # 963
at 2). In his § 2255 motion, Garner made ineffective assistance of counsel claims against
three of his attorneys: (1) Andrew Stephens, who represented from his detention hearing
on July 30, 2013 until his sentencing on February 2, 2015; (2) Thomas Lyons, who
represented him at the restitution hearing; and (3) Mark Wettle who represented Garner
during his direct appeal.
Although the grounds in his initial Motion dealt with other matters as well, Garner’s
objections here relate exclusively to his claims of ineffective assistance of counsel prior
' V

to his plea, at the time of his guilty plea, and at the appellate stage of this action. (Doc #
971). Garner’s waived objections and his specific objections will be addressed in turn.
1.

Waived Objections

The United States Supreme Court has held that when the petitioner fails to file any
objections, “[i]t does not appear that Congress intended to require district court review of
a magistrate's factual or legal conclusions, under a de novo or any other standard.
Thomas v. Am, 474 U.S. 140, 150, 106 S.Ct. 466, 88 L.Ed.2d 435 (1985). “In order to

r

i

Case- 5‘ 12-cr-00065-DLB-MAS Doc #: 1002 Filed: 01/28/20 Page: 6 of 19 - Page ID#:

8413

pj-050ryg an issue for appeal, a defendant is required to file objections with the district
court to the findings of the magistrate judge.” United States v. Hunter, 2001 WL 128297
at *4 (6th Cir.2001) (citing United States v. Walters, 638 F.2d 947, 949 (6th Cir.1981)).
By failing to raise any objection to the R&R as to grounds 2, 3, 5, 9, 10, 11,16, and 17,
Garner waives any objection to the Judge Stinnett’s conclusions with respect to these
grounds.
2.

Ineffective Assistance of Counsel Claims

As noted above, Garner makes specific objections as to grounds 1, 4, 6, 7, 8,12,
13,14, and 15, as listed in his initial motion. (Doc. #971). Garner’s objections relating
to his ineffective-assistance-of-counsel claims, however, largely re-argue the grounds
raised in his Motion. Id. In his R&R, Judge Stinnett identifies two types of ineffectiveassistance claims Garner made in his Motion/those that can be refuted by the record and*)
those that fail to meet the Strickland standard. (Doc. # 963 at 2—13); see also, Strickland
v. Washington, 466 U.S. 668, 685-87 (1984). The Court will similarly categorize Garner’s
virtually identical ineffective-assistance-of-counsel arguments.
i.

Objections refuted by the record

Garner’s third and fourth objections relate to grounds 1 and 8 of his § 2255 Motion.
(Doc. # 971 at 7-10). In particular, Garner complains that his attorney, Mr. Stephens
coerced his plea (ground 8/objection 3), id. at 7—8, and that Mr. Stephens also “...failed
to assure that [Garner] had a full understanding and knowledge of the offered plea[,]”
(ground 1/objection 4), id. at 9-10. In his R&R, Judge Stinnett found that both of these
claims are refuted by the record. (Doc. # 963 at 3—9). The Court agrees.

6

V

«

Case: 5:12-cr-00065-DLB-MAS Doc #: 1002 Filed: 01/28/20 Page: 7 of 19 - Page ID#:
8414

Garner first argued (ground 8) in his § 2255 Motion that Stephens told him he
(not get a 20-year senjanceP)(Doc. # 424 at 1320-21). Judge Stinnett concluded
would
that, even if Garner’s allegation was accurate, it was corrected during Garner’s plea
Court informing Garner he^could get a 20-year sentence)and would not
colloquy by the
be able to withdraw his plea. (Doc. # 963 at 8). The Court agrees with his conclusion.
Garner now objects (objection 3) to the R&R claiming that he was coerced into
pleading guilty, by Mr. Stephens alleged statement that if Garner went to trial “...he most
definitely [would] get 20 years...[.]” (Doc. # 971 at 8). The Court disagrees with Garner’s
assessment for the same reasons it agrees with Judge Stinnett’s conclusion that even if
Garner’s allegation was true, it was corrected during Garner’s plea colloguy when the
Court informed him that h^could receive a 20-year sentence even if he pled guilty^
It is undisputed that the Court informed Garner that he could receive a 20-year
sentence.

After being duly sworn and affirming that he understood his oath of

truthfulness, (Doc. # 424 at 4), the District Court conducted a plea colloquy that included,
among other things4, the following relevant exchange:

THE COURT: Are you fully satisfied with the advice, counsel and
representation he's given you in this matter?
THE DEFENDANT: Yes, sir, I am.
THE COURT: I understand there is no plea agreement; is that correct?

c

MR. STEPHENS:

That is correct, Your Honor please.)

L'. $ \e

Cj0»r

J

-Hvr> ?
THE COURT: Okay, you understand if I accept your plea pursuant to this - accept your plea to this sole count of this indictment, that will deprive you

4
The R&R includes a lengthy recitation of the plea colloquy. (Doc. # 963 at 3-7). In the
interest of clarity and judicial economy, the Court quotes the relevant portions of the plea colloquy
and reincorporates by reference the remainder of the plea colloquy. (Doc. # 424 at 2 12).

t

i

Filed: 01/28/20 Page: 8 of 19 - Page ID#:

Case: 5:12-cr-00065-DLB-MAS Doc #: 1002

8415

of valuable civil rights such as the right to vote, the right to hold public office
the right to serve on a jury and the right to possess any kind of firearm. D
you understand that?
THE DEFENDANT: Yes, sir, I do.

a THE COURT: The penalties prescribed by law for this offense are((iot more
Vapplicable. You understand that?
THE DEFENDANT: Yes, I do.
THE COURT: While those are the statutory penalties, your sentence will be
determined using the - the sentencing guidelines as a framework for my
decision ... You will have the right to appeal that sentence to the United
States Court of Appeals for the Sixth Circuit. If you are sentenced to prison,
you will not be released on parole because parole has been abolished in
the federal system. Finally, if a sentence is more severe than you expected,
you will still be bound by your plea and will have no right to withdraw it. Do
you understand all that?
THE DEFENDANT: Yes, I do.
THE COURT: Have any questions about it?
THE DEFENDANT: No, sir.

THE COURT: Mr. Garner, to the charge we just discussed, how do you
plead, guilty or not guilty? _
THE DEFENDANT: I plead guilty.
(Doc. #424 at 4-6,10).
Contrary to Garner’s objection, this argument is further refuted by Stephens s
November 13, 2013 letter to Garner, which states, in part:
My experience with Judge Hood is that people who come in and admit their
guilt are generally treated with a far less severe hand than if they go to trial
and are convicted or enter a plea according to a plea agreement which is
otherwise a plea to the statutory maximum.

8

Case : 5:12-cr-00065-DLB-MAS Doc #: 1002 Filed: 01/28/20 Page: 9 of 19 - Page ID#:
8416

Thus, at sentencing, you would be able to argue in mitigation of a statutory
maximum sentence asking for a variance under the 3553 sentencing
factors. In my opinion, this could very well apply to you for something along
the lines of a far more reasonable sentence than 240 months. Again, my
experience dictates to me that upon a plea, while it would be possible that
you could get a Guideline sentence similar to those in Ms. Roth’s plea
agreement, it is my belief that you could ask for and may very well be
granted a variance to a reasonable sentence.
(Doc. # 971-1 at 10-11) (emphasis added).
These excerpts of the plea colloquy and letter indicate that both Gamer’s attorney
and the district court plainly informed Garner, before he entered his plea, that it would still
be possible for him to receive a Guideline sentence near the statutory maximum. Thus,
Garner’s claim that Stephens coerced him into entering a plea with the promise of a lower
sentence than if he went to trial is plainly refuted by the record.
Next, Garner argued (ground 1) that his counsel failed to assure that his guilty plea
was knowingly and intelligently given. (Doc. # 882). However, in the R&R, Judge Stinnett
concluded that “Garner’s claim that he did not understand the ‘plea agreement’ is rebutted
by his admission [during the plea colloquy] that he understood there was no plea
agreement.” (Doc. # 963 at 8). The Court agrees.
Garner also objects (objection 4) to Judge Stinnett’s R&R, claiming that it is in error
because “...there was a plea agreement offered in this case.” (Doc. # 971 at 9-10). This
objection, too, is refuted by the record. The district court’s plea colloquy makes clear that „
there was, indeed, no plea agreement between the parties. In fact, Garner declined to
enter the offered plea agreement, which was at the statutory maximum of twenty years^
2j>See (Doc. # 971-1 at 10) (letter from Stephens discussing the offered plea agreement); ^
(Doc. # 424) (Garner’s guilty plea without an agreement). Instead, Garner swore under
oath that he knowingly opted to enter an open guilty plea. See (Doc. # 424). As the United

Case: 5:12-cr-00065-DLB-MAS Doc #: 1002 Filed: 01/28/20 Page: 10 of 19 - Page ID#:

8417

States Supreme Court has held “[t]he representations of the defendant, his lawyer, and
the prosecutor at [a plea] hearing, as well as any findings made by the judge accepting
the plea, constitute a formidable barrier in any subsequent collateral proceedings.”
Blackledge v. Allison, 431 U.S. 63, 73-73 (1977).

Accordingly, the Court finds that

Garner’s objections are unavailing. Those objections that are clearly refuted by the record
are overruled.
ii.

Objections failing to meet the Strickland test.

The remainder of Garner’s objections (1, 2, 5, 6, and 7) relate to grounds 4, 6, 7,
12, 13, 14, and 15 of his § 2255 Motion, and require analysis under the Strickland
standard. Garner’s objections mirror the claims made in his § 2255 Motion, asserting that
Stephens, Lyons, and Wettle were ineffective as counsel at differing stages of this action,
because, among other things, his counsel allegedly failed to investigate or object to a
warrantless search of his vehicle (ground 4), and the search of his email (ground 7), the
determination of the number of victims and amount of loss (grounds 12 and 13), the
determination of the amount of restitution (grounds 6 and 15), or the application of a
leadership enhancement (ground 14). (Doc. #882).
Reviewing

these

ineffective-assistance-of-counsel

claims,

Judge

Stinnett

ultimately concluded that each failed to meet the two-part test set forth in Strickland. (Doc.
# 963 at 9-13). Under Strickland an ineffective-assistance-of-counsel claim requires that
a prisoner show (1) that his “counsel’s performance was deficient measured by reference
to ‘an objective standard of reasonableness’” and (2) “resulting prejudice, which exists
where ‘there is a reasonable probability that, but for counsel’s unprofessional errors, the

10

;

• ’

Case: 5:12-cr-00065-DLB-MAS Doc#: 1002

Filed: 01/28/20 Page: 11 of 19 - Page ID#:

8418

result of the proceedings would have been different.

F.3d 606,

United Stetes v. Colemen, 835

612 (6th Cir. 2016) (quoting Strickland, 466 U.S. at 688, 694).

“To establish deficient performance, a

petitioner must demonstrate that counsel s

representation ‘fell below an objective standard of reasonableness.”’ Wiggins v. Smith,
539 U.S. 510, 521
to articulate

(2003) (quoting Strickland, 466 U.S. at 688)). Courts have declined

specific guidelines for appropriate attorney conduct and instead have

of attorney performance remains simply
emphasized that ‘[t]he proper measure
reasonableness under prevailing professional norms.'" Id. (quoting Strickland, 466 U.S.
at 688). Still

a court’s review of this prong includes a “strong presumption that counsel’s

conduct falls within the wide range of reasonable professional assistance. ” Strickland,
466 U.S. at 689

Petitioner carries the burden of establishing that ‘“counsel made errors

so serious that counsel was not functioning as the “counsel” guaranteed the defendant
by the Sixth Amendment.’” Harrington v. Richter, 562 U.S. 86, 104 (2011) (quoting
Strickland, 466 U.S. at 687).
Prejudice results from a deficient performance when “counsel’s errors were so
serious as to deprive the defendant of a fair trial, a trial whose result is reliable.”
Strickland, 466 U.S. at 687.

“It is not enough ‘to show that the errors had some

conceivable effect on the outcome of the proceeding.’” Harrington, 562 U.S. at 104
(quoting Strickland, 466 U.S. at 693).
Meeting “Strickland’s high bar is never an easy task." Padilla v. Kentucky, 559
U.S. 356,

371 (2010). The standard “must be applied with scrupulous care, lest intrusive

post-trial inquiry’ threaten the integrity of the very adversary process the right to counsel
is meant to serve." Harrington, 562 U.S. at 105. “Even under de novo review, the

11

Case: 5:12-cr-00065-DLB-MAS Doc #: 1002 Filed: 01/28/20 Page: 12 of 19 - Page ID#:
8419

standard forjudging counsel’s representation is a most deferential one” because “[ujnlike
a later reviewing court, the attorney observed the relevant proceedings, knew of materials
outside the record, and interacted with the client, with opposing counsel, and with the
judge.” Id. Here, Judge Stinnett found that “Garner fails to make a sufficient showing
under Strickland to prove either prong on any of his remaining grounds of relief.” (Doc. #
963 at 10).
As discussed above, Garner alleges in his § 2255 Motion that Stephens was
ineffective because he did not object to the number of victims, the amount of loss, and
the amount of restitution (grounds 12 and 13). (Doc. # 882 at 11). Garner further argued
that Stephens was incompetent because he failed to investigate or object to a warrantless,
search of his vehicle (ground 4), and the search of his email (ground 7). Id.
Judge Stinnett ultimately concluded that these claims were baseless. (Doc. # 963
at 11). He notes that Garner’s claims, with respect to the number of victims, the amount
of loss, and restitution, were repeatedly contested by Garner’s counsel in the district court.
Id. at 12. In particular, he notes that these proceedings involved Garner’s counsel raising
objections, eliciting testimony, and cross-examining the Government’s witnesses. Id^ As
to Garner’s claims that Stephens was ineffective for failing to raise objections to the
search of his car, phone, and email, the Judge Stinnett found that there were not legally
valid objections or motions Stephens could have made related to the evidence obtained
-

------------------------------------------------j;

■

-------------------

"

^

in the inventory search of Garner’s car made pursuant to his arrest nor the phone and
email search conducted pursuant to a search warrant. Id. at 13.
Garner objects to the R&R (objection 5) arguing that Stephens’s performance was
deficient because he did not object “...to the PSR on the grounds that there was not a

12

t

Case: 5:12-cr-00065-DLB-MAS Doc #: 1002 Filed: 01/28/20 Page: 13 of 19 - Page ID#:
8420

complete investigation concerning the amount of victims... [,]” and that Stephens failed to
make the appropriate objections fo the amount of restitution. (Doc. # 971 at 11—12).
Garner further objects (objections 1 and 2) to the Judge Stinnett s conclusion that there
-----------------------

^ were no legally valid objects or motions for Mr. Stephens to make" related to the inventory
search of Garner’s car or the warrant search of his phone and email. Id. at 1-6.
First, the Court disagrees with Garner’s claim that Stephens was deficient for
failing to object to the number of victims. The district court held a hearing on loss, a
die*/ <rp t'scu£ (Hat>> {He
V
ca^pie^
separate hearing on restitution, and heard testimony on both loss amount and the number
of victims at the sentencing hearing. (Docs. # 537, 541, 545, 612, 742, 743, 744, and
805). As noted by Judge Stinnett, the fact that Stephens did not succeed on every motion
or objection with regards to the amount of loss and restitution does not make his
performance deficient. Thus, his objection on this ground is misguided.
The Court also disagrees with Garner’s claim that had Stephens made an objection
to the search of his car, phone, and email, all evidence resulting from those searches
would have been suppressed. (Doc. #971 at 1—6). in order to establish a viable claim
of ineffective assistance of counsel based upon counsel's failure to file pretrial motions,
Garner must be able to demonstrate that the basis for the motion is meritorious, and that
there is a reasonable probability that the outcome would have been different.

See

Kimmelman v. Morrison, 477 U.S. 365 (1986). A petitioner must demonstrate this by a
preponderance of the evidence. Pough v. United States, 442 F.3d 959, 964 (6th Cir.
I*
2006). Here, Garner fails to do so. As Judge Stinnett noted, the vehicle was searched
as part of an inventory search pursuant to a valid arrest and the phone and email were
searched pursuant to a search warrant. (Doc. # 963 at 13). Garner has not demonstrated

13

• "

Case: 5:12-cr-00065-DLB-MAS Doc #: 1002 Filed: 01/28/20 Page: 14 of 19 - Page ID#:
8421

that had Stephens objected to these searches that there was a reasonable probability
that the outcome would have been different. Accordingly, this objection also fails.
Further, in his § 2255 Motion, Garner argued that his appellate counsel’s legal
strategies were unreasonable. Specifically, he claims that he asked Wettle to argue on
direct appeal that the district court-incorrectly calculated the number of victims and the
loss amount and used a procedurally deficient method for determining restitution amount!
he argues that Wettle was ineffective for failing to raise those arguments (grounds 6 and
15). (Doc. # 882 at 19). Garner also argued that Wettle was ineffective for choosing not
to argue that Garner should have received a 3-level as a supervisor rather than a 4-level
enhancement as a leader in the scheme (ground 14). Id.
Judge Stinnett dispensed with each of these arguments, noting that Wettle did, in
fact, raise the loss issue on direct appeal to the Sixth Circuit, which upheld the district
court’s ruling, concluding “that the district court made a reasonable estimate of loss.”
(Doc. # 963 at 11); (Doc. # 822 at 6). Next, he reasoned that Garner cannot show Wettje^
was ineffective for making the,strategic decision not to raise the issue of restitution on
appeal (Doc. # 963 at 11). In particular, he explained that Wettle’s decision not to raise
this issue was understandable Lgiven that the District Court entered a fourteen-page
Memorandum Opinion and Order, id. (citing (Doc. # 772)), setting forth its methodology
----------------- ---------------------------------- --- ------------ —------------------------------------------------------------------

and reasons for ordering restitution and the Sixth Circuit upheld, id. (citing (Doc. # 822 at
16-18)), restitution amounts against Garner’s co-defendants.

Finally, he found that

Garner’s argument that Wettle should have argued that Garner should receive a 3-level
rather than 4-level enhancement was unavailing because it would not have reduced the
sentence Garner ultimately received. (Doc. # 963 at 11). As a result, Judge Stinnett

14

Case: 5:12-cr-00065-DLB-MAS

concluded that Garner’s

Doc#: 1002 Filed: 01/28/20 Page: 15 of 19 - Page ID#:
8422

claims fail to meet the Strickland test for showing that Wettle’s

performance was deficient. Id.
Garner

objects (objections 6 and 7) to these conclusions. (Doc. # 971 at 13-17).

However, Garner makes the same arguments as he raised in his § 2255 Motion. Id.
Garner claims that Wettle should have raised the issue of the district court’s calculation
of the number of victims and the method for determining restitution on direct appeal. Id.
at 13-14. Moreover, he argues that Wettle should have argued on direct appeal that
Garner should receive a 3-level rather than 4-level enhancement because doing so “...
would have reduced [Garnerj’s sentence.” Id.
The Court disagrees. As discussed above, these were contested restitution issues
at the district court level, which ultimately held a hearing on loss, a separate hearing on
restitution, and heard testimony orvboth loss amount and the number of victims. (Docs.
# 537, 541, 545, 612 742, 743, 744, and 805).

Further, while Garner did, indeed,

expressly request Wettle raise these issues on direct appeal, (Doc. # 882 at 28-30), the
United States Supreme Court has held that “[tjhis process of ‘winnowing out weaker
arguments on appeal and focusing on’ those more likely to prevail, far from being
evidence of incompetence, is the hallmark of effective appellate advocacy.” Smith v.
Murray, All U.S. 527, 536 (1986) (quoting Jones v. Barries, 463 U.S. 745, 751-52 (1983).
As a result, we find Wettle’s decision not to raise these issues on direct appeal does not
render his assistance ineffective under Strickland, particularly where the record reflect
CJL&S‘h{ flSfthe thoroughness of the district court’s proceedings related to the number of victims and
the methodoloqv and reasoning for ordering the amount of restitution. Simply put,
-----------------------—--------------------------------- =-------cJer.Ut
pZiL
appellate counsel is not required to raise meritless arguments on direct appeal. See
rQCP

15

>

c.

)

Case: 5:12-cr-00065-DLB-MAS Doc #: 1002 Filed: 01/28/20 Page: 16 of 19 - Page ID#:
8423

Martin v. Mitchell, 280 F.3d 594, 607(6th Cir. 2002) (appellate counsel not ineffective for
failing to raise an issue

that would have failed). Moreover, Judge Stinnetts conclusion

that Wettle’s decision not to raise the enhancement argument was reasonable given that,
even if it were successful, it would not have lowered Garner’s guideline range below the
240-month sentence imposed. As a result, the Court finds that Garner s these objections
also are meritless, and that there is no relief available to him on the theory that he was
provided ineffective assistance of counsel. Strickland, 466 U.S. at 694.
C.

Evidentiary Hearing

Section 2255 requires that a district court hold an evidentiary hearing to determine
the issues and make findings of fact and conclusions of law ‘‘[ujnless the motion and the
files and records of the case conclusively show that the prisoner is entitled to no relief.
28 U.S.C. § 2255(b); see also Arredondo v. United States, 178 F.3d 778, 782 (6th Cir.
1999). Here, because the record refutes Garner’s factual allegations and conclusively
shows that Garner is not entitled to habeas relief, the Court will not hold an evidentiary
hearing. See Arredondo, 178 F.3d at 782.
D.

Certificate of Appealability

Finally, “[a] certificate of appealability may issue ... only if the applicant has made
a substantial showing of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2). To
make this showing for constitutional claims rejected on the merits, a defendant must
demonstrate that “reasonable jurists would find the district court’s assessment of the
constitutional claims debatable or wrong.” Slack v. McDaniel, 529 U.S. 473, 484 (2000),
see also Miller-El v. Cockrell, 537 U.S. 322, 338 (2003). The “question is the debatability

16

1

*

Case: 5:12-cr-00065-DLB-MAS Doc #: 1002 Filed: 01/28/20 Page: 17 of 19 - Page ID#:
8424

of the underlying constitutional claim, not the resolution of that debate.” Miller El, 537
U.S. at 342.
In this case, the Court had considered the issuance of a certificate of appealability
as to each of Garner’s claims,

Ultimately, no reasonable jurist would find the

assessments on the merits debatable or wrong. As a result, no certificate of appealability
shall issue.
III.

OTHER PENDING MOTIONS
The adoption of the R&R and the denial of Garner’s Motion to Vacate, Set Aside

or Correct Sentence pursuant to 28 U.S.C. § 2255 moots out many of his other pending
motions. The motions that become moot as a result of the Court’s denial of Garner s
Motion to Vacate include motions requesting documents and transcripts in furtherance of
the § 2255 Motion, (Docs. # 86£, 878, 87^and 921), a motion regarding the magistrate
referral, (Doc. # 908), requests to stay proceedings and resume proceedings, (Docs.
#910 and 915), requests for conferences and hearings in support of his § 2255 Motion,
(Doc. # 920 and 921), and motions for summary judgment and default judgment on the
claims raised in the § 2255 Motion, (Docs. # 934 and 947). While Judge Stinnett noted
some of these motions in his R&R, see (Doc. 963 at 15), the Court finds the list of motions
that shall be denied as moot to be more extensive. Having reviewed all of the pending
motions, as well as Garner’s § 2255 Motion and Judge Stinnett’s R&R, the Court finds
that the following motions must be denied as moot: Motion in Response to the Court’s
Order (Doc. # 868), Motion to Compel Attorney Andrew Stephens to Turn Over
x
Requested Documents (Doc. # 878), Motion for Status on Motion Filed Sept. 11, 2017
(Doc. # 87^ Motion for Status Concerning DE # 901 Order (Doc. # 90^>r1^lotion to

17

*

Case: 5:12-cr-00065-DLB-MAS Doe #: 1002 Filed: 01/28/20 Page: 18 of 19 - Page ID#:
8425

Temporarily Stay Proceedings (Doc. # 91C^Motion to Lift Temporary Stay (Doc. # 91£j)<
Motion for Evidentiary Hearing (Doc. # 920), Motion for Discovery (Doc. # 921), Motion
for Pre-Hearing Conference (Doc. # 922)jjyiotion for Summary Judgment (Doc. # 934)^
and Motion for Default Judgment (Doc. # 9471,
IV.

CONCLUSION
Garner cannot demonstrate that counsel was ineffective, nor has he offered any

evidence of prosecutorial misconduct or that the Court should revisit his request In. withdraw his guilty plea. Here,

. . the motion and the files and records of the case

conclusively show that the prisoner is entitled to no relief.” 28 U.S.C. § 2255(b). Because
“it plainly appears ... that the moving party is not entitled to relief, the [Court] must dismiss
the motion.” Rules Governing Section 2255 Proceedings, Rule 4.
Accordingly, IT IS ORDERED as follows:

(1)

The Report and Recommendation of the United States Magistrate Judge

(Doc. # 963) is hereby ADOPTED_as the findings of fact and cbnclusions of law of the
Court;
(2)

Defendant’s Objections (Doc. # 971) are hereby OVERRULED;

(3)

Defendant’s Motion to Vacate, Set Aside, or Correct Sentence pursuant to

28 U.S.C. § 2255 (Doc. # 882) is hereby DENIED;
(4)

Docket entries 868, 878, 879, 908, 910, 915, 920, 921, 922, 934, and 947

are hereby DENIED AS MOOT;
(5)

This matter is hereby DISMISSED and STRICKEN from the Court’s active

docket;

18
;•

\

Case: 5:12-cr-00065-DLB-MAS Doc #: 1002 Filed: 01/28/20 Page: 19 of 19 - Page ID#:
8426
r.

(6)

For the reasons set forth herein and in the Magistrate Judge’s Report and

Recommendation (Doc. # 963), the Court determines that there would be no arguable
merit for an appeal in this matter and, therefore, NO CERTIFICATE OF APPEALABILITY
SHALL ISSUE; and
(7)

A separate Judgment will be filed concurrently herewith.

This 28th day of January, 2020.

Signed By:
David L. Burmina
United States District Judge

J:\DATA\ORDERS\Lexington\2012\12-65 Order Adopting R&R re 2255.docx

19

Case: 5:12-cr-00065-JMH-MAS Doc #: 963 Filed: 04/30/19 Page: 1 of 16 - Page ID#:
8193
APPENDIX G
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF KENTUCKY
CENTRAL DIVISION
LEXINGTON

UNITED STATES OF AMERICA,
Plaintiff/Respondent,
v.

NICHOLAS COREY GARNER,
Defendant/Petitioner.

)
)
)
)
)
)
)
)
)
)

Criminal Action No.
5:12-065-JMH-MAS-3
and
Civil Action No.
5:18-229-JMH-MAS-3

REPORT & RECOMMENDATION
This matter is before the undersigned on Petitioner Nicholas Corey Garner’s (“Garner”)
Motion to Vacate, Set Aside or Correct a Sentence pursuant to 28 U.S.C. § 2255. [DE 882].
Gamer alleges violations of his right to counsel, equal protection rights and speedy trial rights as
well as multiple claims of ineffective assistance of counsel. [DE 354]. The United States
responded in opposition [DE 379], and Garner filed a reply [DE 392]. After reviewing the record
in its entirety, the Court recommends Garner’s motion be denied for the reasons stated below.
I.

RELEVANT FACTUAL BACKGROUND

On March 18, 2013, Garner and numerous co-defendants were indicted on charges of
conspiracy to commit wire fraud. [DE 171]. The conspiracy involved a dozen individuals in an
international scheme to defraud people purchasing vehicles on the Internet over the course of
several years. PE 171]. On December 4, 2013, Gamer pleaded guilty to conspiracy without a
plea agreement. PE 333]. In June 2014, prior to sentencing, Garner moved, pro se, to withdraw
his guilty plea over his counsel’s objections. [DE 413 and 419]. The Court denied this request
and Garner was sentenced on February 2, 2015, to 240-months of imprisonment and ordered to
1
APPENDIX G

Case: 5:12-cr-00065-JMH-MAS Doc #: 963 Filed: 04/30/19 Page: 2 of 16 - Page ID#'
8194

pay $1,807,517.06 in restitution. [DE 443, 564’ 591, 594,' 598]. The Sixth Circuit affirmed the
District Court’s judgment on January 13; 201?. ' [DE 822].
Gamer then timely filed the present Motion to Vacate, Set Aside, or Correct a Sentence on
April 13,2018. [DE882]. In total, Garner has alleged seventeen grounds in support of his motion.
While the bulk of Gamer’s arguments focus on alleged violations of his Sixth Amendment rights
under the theory of ineffective assistance of three different defense counsel, he also claims
prosecutorial misconduct and renews his motion to withdraw his guilty plea.
II.
A.

ANALYSIS

Ineffective Assistance of Counsel
Gamer utilized seven different attorneys in this matter from pre-indictment through his

direct appeal.1 He makes claims against three of them: Andrew Stephens (“Stephens”), who
represented Gamer from the detention hearing on July 30, 2013, until the sentencing on February
2, 2015; Thomas Lyons (“Lyons”), who represented him at the restitution hearing; and Mark
Wettle (“Wettle”), who represented Gamer during his direct appeal to the Sixth Circuit Court of
Appeals.
To succeed on a § 2255 motion, petitioner “must establish an error of constitutional
magnitude which had a substantial and injurious effect of influence on the proceedings.” Watson
v. United States, 165 F.3d 486, 488 (6th Cir. 1999) (citing Brecht v. Abrahamson, 507 U.S. 619,

Garner submitted at least thirteen letters or pro se motions to the Court complaining about
his trial counsel. [DE 105,115, 121, 136,148,196, 338, 367, 379,445,471, 568, 584]. The Court
held at least three hearings addressing conflicts between Garner and his numerous lawyers. [DE
109, 116, and 591]. One of his court-appointed attorneys moved to withdraw from the case due to
“personal safety concerns” after Garner told her “she is not going to be alive much longer.” [DE
237 at 746],
2

Case: 5:12-cr-00065-JMH-MAS Doc #: 963 Filed: 04/30/19 Page: 3 of 16 - Page ID#:
8195

637-38 (1993)). In his motion, Garner has raised numerous grounds to support,his claim for
ineffective assistance of counsel. The Court will address each of these arguments below.
1. Grounds Refuted by the Record
Gamer’s motion focuses primarily on his open guilty plea. Gamer argues that his counsel
and the District Court failed to assure that his guilty plea was intelligent and knowing and that he
understood the charges against him. In a related argument, he claims his appellate counsel failed
to raise the issue that his guilty plea was not intelligently given on appeal. Gamer’s grounds for
relief 1, 2, 3, 5, 8, 10, and 17 are all variations of this argument. All of them are refuted by the
record.
Stephens began his representation of Gamer with a Boykin letter setting forth the charges
against him and the possible penalties. |DE 419-1 at Page ID # 1290-94]. The letter also,set forth
Garner’s constitutional, statutory, and appellate rights. [Id.].
The heart of Gamer’s numerous arguments, moreover, rest upon an allegedly faulty plea
colloquy. Again, Garner alleges that the plea was not done intelligently and knowingly nor that
the District Court addressed him directly. Thus, the Court provides the plea colloquy at length
below to demonstrate how plainly the record refutes Gamer’s argument. After being duly sworn
and affirming that he understood his oath of truthfulness [DE 424 at Page ID # 1318], the District
Court then conducted the following plea colloquy.
THE COURT: Are you currently under the influence of any drug, medication or
alcoholic beverage?
THE DEFENDANT: No, sir.
THE COURT: Have you seen a copy of the indictment, the - I guess it's the third
superseding indictment; is that correct? .
THE DEFENDANT: Yes,,sir'
THE COURT: Have you seen a copy of that?
3

Case: 5:12-cr-00065-JMH-MAS' Doc #: 963 Filed: 04/30/19 Page: 4 of 16 - Paqe lD#1
8196

THE DEFENDANT: ;Yes, sir, I have one..

’

1

;;

i

*

■:

,■

•.

:■

THE COURT: Have you discussed that indictment aiidyour case in general with
Mr. Stephens as your attorney?
THE DEFENDANT: Yes, sir.
THE COURT: Are you fully satisfied with the advice, counsel and representation
he's given you in this matter?
THE DEFENDANT: Yes, sir, I am.
THE COURT: I understand there is no plea agreement; is that correct?
MR. STEPHENS: That is correct, Your Honor please.
THE COURT: Okay, you understand if I accept your plea pursuant to this — accept
your plea to this sole count of this indictment, that will deprive you of valuable civil
rights such as the right to vote, the right to hold public office, the right to serve on
a jury and the right to possess any kind of firearm. Do you understand that?
THE DEFENDANT: Yes, sir, I do.- , .
THE COURT: The penalties prescribed by law for this offense are not more than
twenty years in prison, a $250,000 fine and three years' supervised release, plus a
mandatory special assessment of $100 and. restitution, if applicable. You
understand that?
THE DEFENDANT: Yes, I do.
THE COURT: While those are the statutory penalties, your-sentence will be
determined using the — the sentencing guidelines as a framework for my decision.
. . . You will have the right to appeal that sentence to the United States Court of
Appeals for the Sixth Circuit. If you are sentenced to prison, you will not. be
released on parole because parole has been abolished in the federal system. Finally,
if a sentence is more severe than you expected, you will still be bound by your plea
and will have no right to withdraw it. Do you understand all that?
THE DEFENDANT: Yes, I do.
THE COURT: Have any questions about it?
THE DEFENDANT: No, sir.
THE COURT: We had atrial scheduled in your case for January 14th ofhextyear.
You understand that if you wanted to continue to plead not guilty to this charge,
you would have a right to that trial.
THE DEFENDANT: Yes, I do.
4

Case: 5:12-cr-00065-JMH-MAS Doc #: 963 Filed: 04/30/19 Page: 5 of 16 - Page ID#:
8197

THE COURT: And that would be a trial by jury, you-are aware of that? • THE DEFENDANT: Yes,; sir.
THE COURT: You would have the right to assistance of counsel for your defense.
You are aware of that?
THE DEFENDANT: Yes, sir.
THE COURT: You would have a right at that trial to see, hear and have cross
examined all witnesses against you. You understand that?
THE DEFENDANT: Yes, I do.
THE COURT: You would have a right to compulsory process. In other words, the
court would subpoena witnesses to testify in your defense. You understand that?
THE DEFENDANT: Yes, I do.
THE COURT: You would have a right, too, to remain silent. In other words, you
could not be forced to testify. You could obviously testify, but it would be
voluntarily and in your own defense. Do you understand that? ‘
THE DEFENDANT: Yes, sir.
THE COURT: And finally you would have the right to make the government prove
this charge to the jury beyond a reasonable doubt. Do you understand that?
THE DEFENDANT: Yes, I do.
THE COURT: Now, if I accept your plea, there will never be a trial in this matter
and you will have waived or given up your right, to a trial as well as those rights
associated with the trial that I have just described. You understand that?
THE DEFENDANT: Yes, I do, I understand.
THE COURT: This indictment is I think 15 pages long, and you have read it, right?
THE DEFENDANT: Yes, sir.
THE COURT: You have discussed it with Mr. Stephens.
THE DEFENDANT: Yes, sir.
THE COURT; So it — I don't see any real need to read the whole thing to you, do
..

":v';'

THE DEFENDANT: No, sir, no, sir.
5

Case: 5:l2-cr-00065-JMH-MAS' Doc #: 963 Filed: 04/30/19 Page: 6 of 16 - Page ID#
8198

THE COURT; Well,"let me ask you this.1 What did you dorthat;would wafr'ahtyoti
to entering into a guilty plea ~ entering a guilty plea to this conspiracy?
THE DEFENDANT: I used false identification.
THE COURT: Yeah.
THE DEFENDANT: And my real identification to send wires by Western Union.
THE COURT: Yeah.
THE DEFENDANT: And sending and receiving money —
THE COURT: Well, who did you send money to?
THE DEFENDANT: Some THE COURT: Somebody overseas?
THE DEFENDANT: Yes, sir.
THE COURT: Well, where did you get this money?
THE DEFENDANT: It was sent to me.
THE COURT: And then you in turn - did you keep any of it, or what did you do?
THE DEFENDANT: Yes, sir, yes, sir, yes, sir, I kept a percentage of it.
THE COURT: Who sent it to you, do you know?
THE DEFENDANT: No, sir.
THE COURT: And then — but you knew that there was something wrong with this
money; is that correct?
THE DEFENDANT: Yes, sir, yes, sir.
THE COURT: How did you know that?
THE DEFENDANT: Because I obtained it with a fraudulent ID.
THE COURT: Okay, you used this fraudulent ID to get this money.
THE DEFENDANT: Yes, sir.
THE COURT: And then you sent it overseas by wire, kept part of it; is that correct?
THE DEFENDANT: Yes, sir, yes, sir.
6

Case: 5:12-cr-00065-JMH-MAS Doc #: 963 Filed: 04/30/19 Page: 7 of 16 - Page ID#:
8199

THE COURT: And somebodydse over,-- welly had to be over there to get that-wire
transfer.
THE DEFENDANT: Yes, sir.
THE COURT: So somebody else was involved with you, too?
THE DEFENDANT: Yes, sir.
THE COURT: Satisfactory factual basis, Miss Roth?
MS. ROTH: Yes, Your Honor,
THE COURT: Concur, Mr. Stephens?
STEPHENS: Concur, yes, sir, I do.
THE COURT: Mr. Gamer, to the charge we just discussed, how do you plead,
guilty or not guilty?
THE DEFENDANT: I plead guilty
[DE 424 at Page ID # 1319-25].
“[T]he representations of the defendant, his lawyer, and the prosecutor at [a plea] hearing,
as well as any findings made by the judge accepting the plea, constitute a formidable barrier in any
subsequent collateral proceedings.” Blackledge v. Allison, 431 U.S. 63, 73-74 (1977). “The
subsequent presentation of conclusory allegations unsupported by specifics is subject to summary
dismissal” because of the “strong presumption of verity” of the statements made under oath during
the plea colloquy. Id. at 74.
Garner swore under oath at the plea colloquy that he was satisfied with his counsel, that he
understood the ramifications of pleading guilty, and that he understood the charges against him.
The Court required Garner to set forth, in his own words, what actions he undertook that
constituted each element of conspiracy to commit wire fraud.2 Gamer was able to do so, stating:

2 The elements of wire fraud are that a defendant (1) knowingly participated in a scheme
to defraud in order to obtain money or property; (2) that, the scheme included a'material
misrepresentation or concealment of a material fact; (3) that the defendant had the intent to
7
'ft-

Case: 5:12-cr-00065-JMH-MAS Doc #: 963 Filed: 04/30/19 Page: 8 of 16 - Page ID#1
8200

“I used-false identification u:; - And my .'real identification to send wires-by Western-Union .
And sending arid receiving money.” [DE 424; at Page ID #'1324]. As-set out above, Gamer told
the Court he knew there was something “wrong” with the money because he used false
identification to obtain it, he sent it overseas, and he kept a percentage of the money. [Id.]. He
also confirmed there were other people involved in the scheme. [Id.]. Garner’s arguments that he
did not know the elements of the crime he pleaded guilty to, or did not understand them, are in
direct conflict with his representations to Judge Hood under oath. See Curry v. United States, 39
Fed. App’x 993, 994 (6th Cir. 2002) (finding that a defendant’s “plea serves as an admission that
he committed all of the elements of the crime,”): . Garner’s claim that he did not understand the
“plea agreement” is rebutted by his admission that, he understood there was no plea agreement.
[DE 424 at Page ID #1319]. Gamer’s-argument that, Stephens told him he would -.‘not get a 20year sentence,” if true, was corrected during the plea colloquy by the Court informing Garner he.
could get a 20-year sentence, and would not be able to withdraw his guilty plea. [Id. at 1320-21].
Gamer’s claim that the District Court did not address him “personally and in open court” and failed
to determine whether the plea was voluntary is .directly refuted by the transcript of the
rearraignment, quoted above. [DE 882 at Page ID #7782; DE 424 at Page ID # 1318-27].
Accordingly, the Court recommends tfie District Court deny Garner’s motion for § '2255 relief on
the grounds that Stephens provided ineffective assistance of counsel.
Garner’s ineffective assistance claim against Lyons, who represented Gamer leading up to
and at the hearing on restitution, is also refuted by the record.

Garner-alleges Lyons failed to

defraud; and that the defendant used or, caused another person to use, wire communications in
interstate or foreign commerce in furtherance of the scheme. See 18 U.S.C. § 1343; Sixth Circuit
PatterP Jury Instructions Sec. 10.02; see also 18 U.S.C. § 1346 .(“Any person who. attempts or
conspires to commit any offense under this chapter shall be subject to the same penalties as those
prescribed for the offense, the commission of which was the object of the attempt or conspiracy.”).
8

Gase: ,5:12-cr-00Q65-JMH-MAS Doc #: 963 Filed: 04/30/19 Page: 9 of 16 - Page ID#:
8201

object to the ;ampunt of restitution and number of victims and failed to raise the issue with the
Court that Garner was .unable to pay restitution in..a $ 1.8 million.lump sum payment. Garner also
implies that Lyons is at fault for the United States’ Probation Office’s (“USPO”) supposed
misinformation in the Presentence Investigation Report (“PIR”), and the Court’ s alleged failure to
adhere to Fed. R. Crim. P. 32. An ineffective assistance claim cannot lie against Lyons for the
actions of the Court or the USPO. Lyons did not represent Garner during the presentencing phase,
at which time objections to the PIR would have been appropriate. Lyons did, however, raise the
issue of the Court’s failure to require the USPO to abide by the requirements of 18 U.S.C. § 3664
in accepting a summary chart supporting the restitution amount. [DE 805 at 735 0-51]. The District
Court, however, did not agree with Lyons’ argument; that does not make him ineffective under the
law. See Hodge v. Haeberlin, 579 F.3d 627, 644 (6th Cir. 2009) (“Counsel does not fall below
this fStrickland] standard by failing to prevail when arguing a debatable point to the court.”).
2. Grounds Failing to Meet Strickland Standard
Garner’s remaining ineffective assistance of counsel claims require the application of the
two-part test set forth in Strickland v. Washington, 466 U.S. 668, 685-87 (1984). To prevail on an
ineffective assistance of counsel claim in a § 2255 motion, a petitioner must prove (1) that their
counsel’s performance was deficient,' and (2) that petitioner suffered prejudice due to that
deficiency.

Id. at 687.

Deficient performance is shown only through proving “counsel’s

representation fell below an objective standard of reasonableness.” Id. at 687-88. A showing of
prejudice requires a “reasonable probability that, but for counsel’s errors, the judicial outcome
would have been different.” Id. at 694-95. A petitioner must satisfy both prongs of the test, but
courts need “not address both components of the deficient performance and prejudice inquiry ‘if
the defendant makes an insufficient showing on one,”’ Campbell v. United States, 364 F.3d 727,

9
/
\

Case: 5:12-cr-00065AIMH-MAS Doc #: 963 - Filed: 04/30/19 Page: 10 of 16 - Paige ID#8202

730 (6th Cir. 2004); Strickland, 466 U.S. at 697.- Gamer fails to make a sufficient showing under
Strickland to prove either prong on any of his remaining-grounds for relief.
A finding of deficiency requires the petitioner “prove that counsel’s representation was not
merely below average, but rather that it*‘fell below an objective standard of reasonableness.’”
United States v. Dado, 759 F.3d 550, 563 (6th Cir. 2014) (quoting Strickland, 466 U.S. at 688).
Courts “employ a ‘strong presumption that counsel’s conduct falls within the wide range of
reasonable professional assistance.’” Id. (quoting Strickland, 466 U.S. at 689); see also O'Hara v.
Wigginton, 24 F.3d 823, 828 (6th Cir. 1994).
Gamer claims his appellate counsel’s legal strategies were unreasonable because he failed
to raise certain issuesdespite Gamer’sexpress request that he do so. [DE 882 at Page ID # 7718,
7729, 7738-40 (grounds 3, 6, 14, and 15)]. “[Ijneffective assistance of appellate counsel claims
are governed by the sameStrickland standard as claims of ineffective assistance of trial: counsel;”
Shaneberger v. Jones, 615 F.3d 448, 452 (6th Cir. 2010)..(citing Smith v. Robbins, 528 U.S. 259,
285 (2000)). His appellate counsel, Wettle, explained in his statement attached to the United
States’ response that while Garner, did raise these issues with Wettle, Wettle explained to Gamer
that the issues “did not raise to the level’of palpable error” and he did not believe the issues to be
valid ones for appeal. [DE 898-3, Statement of Mark Wettle, Page ID # 7876.]. The Court notes
that the admission of this statement as evidence in Garner’s § 2255 matter is likely inappropriate
because the statement is not a swom-to affidavit. However, upon independent-review of the record
and the relevant law, the Court agrees with Wettle’s.purported statement that the issties Garner
wished to appeal were not viable issues on appeal or were weak arguments which would confuse
or dilute any better arguments he might have had. Regardless of the Court’s agreement with
Weitle; “[tjhis process of‘Winnowing out weaker Arguments oii appeal arid focusing on’ those'

10

\:

'I

Case: 5:12-er-00065-JMH-MAS Doc #: 963 Filed: 04/30/19 Page: 11 of 16 - Page ID#:
8203

more, likely to prevail, far from being evidence of incompetence, is the hallmark of effective
appellate advocacy.” Smith v:. MurrayIhS, 527,* 536 (1986) (quoting Jones v. Barnes, 463
U.S. 745, 751-52>(1983).
Gamer also asked Wettle to argue that the Court incorrectly ^calculated the issue of the
number of victims, the loss amount, and used a procedurally deficient method for determining the
restitution amount. [DE 882 at Page ID # 7729]. Contrary to Gamer’s claim, Wettle did raise the
loss issue at the Sixth Circuit Court of Appeals, and that Court upheld the District Court’s ruling,
concluding “that the district court made a reasonable estimate of the loss.” [DE 822 at Page ID #
7449]. Further, the District Court wrote a fourteen-page Memorandum Opinion and Order setting
forth its methodology and reasons for ordering restitution in the amount that it did. [DE 772],
Gamer cannot show that Wettle was ineffective in making a strategic decision not to raise this
issue on appeal, particularly in light of the appeals court upholding the restitution amounts against
his co-defendants. [DE 822 at Page ID # 7459-61]. Similarly, he cannot show Wettle was
ineffective in choosing not to argue that Garner should have received a 3-level enhancement for
his role as a “supervisor” rather than a 4-level enhancement for his role as a “leader” in the scheme.
Wettle reasonably “winnowed out” this argument because it would not have reduced the sentence
Gamer received.3

Gamer has hot made the requisite showing 'under Strickland that Wettle’s

performance was deficient.
Gamer makes similarly baseless claims against Stephens that fail to meet the Strickland
standard. He maintains Stephens failed to investigate and object to the warrantless search of his

3

If Gamer’s analysis, were to be accepted, it wouldhaye lowered the lowest end of Garner’s
Sentencing Guidelines range from 292 months to 262 months, which is still above the 240-month
sentence the District Court imposed. Strickland involves an “exacting standard” of showing that,
but for counsel's failure, there is a reasonable probability that the outcome would have been
different. Hinkle v. Randle, 271 F.3d 239, 245 (6th Cir. 2001).
11

Case: 5:12-cr-00065-JMH-MAS Doc #: 963 Filed: 04/30/19 Page: 12 of 16 - Page ID#8204

vehicle, search of his email, and the number of victims, and the amount of loss and restitution.
[DE 882 at 7721 (grounds .4 and 7)]. As-noted repeatedly'herein; the nurhberof victims andthe
amounts of loss and restitution were contested issues in this case. The Court held a hearing on
loss, a separate hearing on restitution, and heard testimony on both loss amount and the number of
victims at the sentencing hearing.4 [DE 537, 541, 545, 612, 742, 743, 744, 783, 805]. At the loss
hearing, Stephens raised objections and cross-examined the government’s witness.;* Stephens, in
his sworn affidavit attached to the United States’ response to the § 2255 motion, states that while
the losses in this matter were incredibly difficult to quantify, he reviewed the all of voluminous
information available to him. [DE 898-1 at Page ID # 7867]. Stephens’ exhaustive understanding
of all aspects of this case is demonstrable throughout the record in this case. [See, e.g., DE 381,
424, 472, -742, -743, and 744].:- As noted above, “[c]ounsel does, not fall: below this .[Strickland]
standard by failing to prevail when arguing a debatable point to the court.”). See . Hodge v.
Haeberlin, 579 F.3d 627, 644 (6th Cir. 2009). The fact that Stephens did not succeed on every
motion or objection does not make his performance deficient.
Garner’s remaining ineffective assistance claims relate to supposed Fourth Amendment
violations not raised by Stephens. “Though free-standing Fourth Amendment claims cannot be
raised in collateral proceedings under either § 2254 or § 2255, the merits of a Fourth Amendment
claim still must be assessed when a claim of ineffective assistance of counsel is founded on
4 It is important to note that Garner insisted, over the Court and Stephens’ extreme unease,
that he represent himself at the sentencing hearing. pE 612 at Page ID # 3739-59]. At the
sentencing, counsel for the United States expressed concern as to whether the defense had had an
adequate opportunity to cross-examine the agent who testified to the number of victims; as a result
the Court allowed the agent to take the stand once again at the sentencing and be subject to crossexaminatiqn by Garner (who had^dismissed Stephens by that point in the hearing). .[DE 612 at
Page ID# 3760].
.......'•-'■■■
/ ; .........
: 5.By way of example .only, and.hot an. exhaustive list, see DE 742 at 5743, 5751, 5752,*
5799 and 5825-26 (objections); DE:743 at 6108-26 (cross-examination),
* .
.
12

Case: 5:12-cr-00065-JMH-MAS Doc #: 963 .Filed: 04/30/19 Page: 13 of 16 - Page ID#:
8205

incompetent representation with respect to aFourth Amendment issue.” Hay y. United States, 721
F.3d. 758, 762 (6th Cir.. 2013).., Gamer’s arguments, that Stephens’ performance was deficient
because he did not investigate or object to the search of his vehicle and the search of his, email are
easily disposed of. The vehicle was searched as part of an inventory search pursuant to Gamer
and his mother’s valid arrest,6 [DE 742 at 5790-91]. Gamer’s phone and email was searched
pursuant to a search warrant. [DE 612 at 3800; See also Case No. 5:12-MJ-5061 -REW]. There
were no legally valid objections or motions for Stephens to make related to the pieces-of evidence
obtained pursuant to these searches. Accordingly, Gamer’s ineffective assistance of counsel
claims related to these searches fail both prongs of Strickland and should be denied.
B.

Garner’s Remaining Arguments
Although the bulk of Gamer’s arguments center upon ineffective assistance of counsel, he

also raises two other issues: prosecutorial misconduct and withdrawal of his guilty plea.
Initially, Gamer offers no facts to support his argument that there was prosecutorial
misconduct. [DE 882 at Page ID # 7733 (ground nine)]. Gamer baldly alleges that the United
States Attorney did not “satisfy its [sic] burden of Proof’ as required at the “preplea, plea, pre­
sentencing or sentencing” stage of the case. Conclusory statements are insufficient to warrant §
2255 relief. See Lovejoyv. United States, No. 95-3968, 1996 WL 331050, at *3 (6th Cir. June 13,
1996) (acknowledging that conclusory statements are insufficient to warrant § 2255 relief). [DE
882 at Page ID # 7733]. Thus, Garner’s underdeveloped claim of prosecutorial misconduct should

6 Gamer and his mother/co-defendant were pulled over for speeding and arrested when the
officer on the scene discovered they had outstanding arrest warrants as a result of the Indictment
in this case. [DE 12, .15, 77, 742 at 5790, and 898 at 7853]. The vehicle was impounded and
searched, whereupon the much-discussed “ledger” detailing the fraud scheme was discovered.
13'

r\
Case: 5:12-cr-00065-JMH-MAS Doe #: 963 Filed: 04/30/19 Page: 14 of 16 - Page ID#'
8206

be dismissed. See Johnson v. UnitedStates,457Fed.App,x 462,466-67 (6th Gir. 2012); United
States v. Dpmeneeiymi^l:06-CR^245^ 2013 WL 3834366, at *2 (W.D. Mich.July 24,2013). :
In his eleventh ground for relief Gamer essentially renews'his motion to withdraw his
guilty plea. [DE 882 at 7735; see DE 413 for original motion]. Gamer does not raise any new
facts or arguments that would justify the Court revisiting this exhaustively-litigated issue in his §
. 2255 jnotion. [See DE 413, 415, 416, 419, 433, 443]. “It is well settled that-a voluntary and
intelligent plea of guilty made by an accused person, who has been advised by competent counsel,
may not be collaterally attacked. [.. .] As the third circuit has noted, [c]ourts naturally look with
a jaundiced eye upon any defendant who seeks to withdraw a guilty plea after sentencing on the
ground that he expected a lighter sentence;” Baker v. -United States, 781 F.2d 85, 92 (6th Cir.
1986) (quotation marks and citations omitted). Further, Gamer did not raise this issue on- direct
appeal. Thus, the plea cannot be collaterally attacked without a showing of “cause” and' “actual
prejudice,” a showing that Garner does make in his motion. [DE 822]; Bousley v. United States,
523 U.S. 614,622 (1998). Accordingly, the Court recommends the district deny the § 2255 motion
on this ground.

..............
III.

-

. .

....

CONCLUSION

For the reasons stated herein; the: Court recommends the District Court deny Gamer’s
Motion to Vacate, Set Aside, or Correct his Sentence pursuant to 28 U.S.C. § 2255. The Court
notes that despite Gamer’s insistence that three different attorneys provided ineffective assistance
of counsel, and his allegations that the District Court violated his rights, the record in this case
serves as evidence to the contrary. The instant motion is a continuation of Garner’s attempt to
thwart justice, mislead the Courtj and manipulate every individual involved in this case.'7
, !“>

; ]

: < •

,

*

7 The record is replete'with evidence of Garner’s attempts to delay, obfuscate the truth,
mislead, and manipulate: making death threats against his couiisel [DE 237]; his own counsel’s
14

Case: 5:12-cr-00065-JMH-MAS Doc #: 96.3 Filed: 04/30/19 Page: 15 of 16 - Page ID#:
8207

, Finally, there, are numerous pending pro se motions in, this matter. If the District Court
adopts this Report and Recommendation; and denies; § -2255 relief,5 the following motions -will be
moot: DE 908, 910,913, 915, 920, 921; and 922.-

•;

CERTIFICATE OF APPEALABILITY
A certificate of appealability may issue only if a defendant has made a substantial showing
of the denial of a constitutional right. 28 U.S.C. § 2253(c)(2). The Supreme Court fully explained
the requirement associated with a “substantial showing of the denial of a constitutional right” in
Slack v. McDaniel, 529 U.S. 473,484 (2000) (addressing issuance of a certificate of appealability
in the context of a habeas petition filed under 28 U.S.C. § 2254, which legal reasoning applies with
equal force to motions to vacate brought pursuant to 28 U.S.C, § 2255). In cases where a district
court has rejected a petitioner's constitutional claims''on-the merits, “the petitioner iriust
demonstrate that reasonable jurists , would find the district court's assessment of the constitutional
claims debatable or wrong.” Id.
In-this .case, reasonable jurists would not debate the denial of Defendant's § 2255 motion
or conclude that the issues presented are adequate to deserve encouragement to proceed further.
See Miller-El v. Cockrell, 537 U.S. 322, 327 (2003) (citing Slack, 529 U.S. at 484). Accordingly,
the Court RECOMMENDS that the District Court DENY a certification of applicability.

statements that Gamer’s continual complaints of conflict were “generated by the Defendant, his
own conduct, and his very poorly disguised attempts to delay and obfuscate” [DE 472 at 1583];
that Garner has a “complete and utter lack of understanding of his own criminal behavior” [DE
570 3489]; that “Defendant’s repeated attempts to get yet a fifth attorney to ‘see the case his-way’.is
simply a tactic of delay and obfuscation and should not be sustained by the Court” \Id.\, the Court’s
observation that “Gamer believes his counsel is against him when, in fact, the law and the facts are
against him” [DE 585 at 3632]; Gamer’s admission that the doctor who conducted his,psychological
examination called him, in Gamer’s paraphrasing, a “lying MF’er” [DE 612 at 3749].
15

rj
Case: 5:12-cr-00065-JMH-MAS Doc #: 963 Filed: 04/30/19 Page: 16 of 16 - Paae ID#8208

RECOMMENDATION
For all of.the reasons stated in this decision, the Court RECOMMENDS that:
1) the District Court DENY, with prejudice, Defendant's § 2255 motion [See DE 882]; and
2) the District Court DENY a Certificate of Appealability as to all issues, should movant
request a COA.
The Court directs the parties to 28 U.S.C. § 636(b)(1) for appeal rights concerning this
recommendation, issued under subsection (B) of said statute. As defined by § 636(b) (1), Fed. R.
Civ. P. 72(b), Fed. R. Crim. P. 59(b), and local rule, within fourteen days after being served with
a copy of this recommended decision, any party may serve and file written objections to any or all
portions for consideration, de novo, by the District Court,
Entered this 3 Oth day of April,. 2019.

§||l Signed By:
Matthew A. Stinnett
United States Magistrate Judge

16

